HHS/OIG, Audit -"Ineligible Medicare Payments to Skilled Nursing Facilities Under the Administrative Responsibility of Cahaba Government Benefit Administrators,"(A-05-03-00051)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Ineligible Medicare Payments to Skilled Nursing Facilities Under the
Administrative Responsibility of Cahaba Government Benefit Administrators," (A-05-03-00051)
July 16, 2003
Complete
Text of Report is available in PDF format (133 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine the extent of ineligible Medicare
Skilled Nursing Facility (SNF) payments contained in our database of payments
made under the administrative responsibility of Cahaba Government Benefit Administrators
(Cahaba).  We estimate that $3.3 million of ineligible SNF payments were
made under the administrative responsibility of Cahaba during calendar years
1997 through 2001.  The overpayments occurred because of the absence of
an automated cross-check, within the Centers for Medicare and Medicaid Services
Common Working File and the Fiscal Intermediary’s claims processing systems,
verifying that a three consecutive day inpatient hospital stay occurred prior
to SNF admission.  Cahaba officials generally concurred with our recommendations.